            Smithsonian Institution 	                                                                      Memo
                                                                     ADMINISTRATIVELY CONFIDENTIAL




  Date      September 29,2006

    To 	 Sheila P. Burke, Deputy Secretary and Chief Operating Officer 

            Cristian Samper K., Director, National Museum of Natural History 

            James J. McLaughlin, Director, Office of Protection Services 


    cc 	    William W. Brubaker, Director, Office of Facilities Engineering and Operations 

            William Tompkins, National Collections Coordinator 


 From       A. Sprightley Ry          ,ting Inspector General

Subject 	   Audit of Physical Security and Inventory Control Measures to Safeguard the National
            Collections at the National Museum of Natural History, Number A-05-06

            This report, the last in our series of three reports covering security issues at the
            Smithsonian,! presents the results of our audit of the security and inventory control
            measures safeguarding the collections at the National Museum of Natural History
            (NMNH). As noted in Concern at the Core, Managing Smithsonian Collections, the Office
            of Policy and Analysis' comprehensive study of collections management at the Institution,
            Smithsonian collections are increasingly at risk because of declining resources to perform
            basic collections management. The Office of the Inspector General (OIG) initiated this
            audit to examine physical security measures and inventory controls, two aspects of
            collections management that are essential to reduce the risk ofloss or theft.

            Our objectives were to determine whether (1) physical security is adequate to safeguard
            the collections, and (2) inventory controls are in place and working adequately. We
            assessed the use and effectiveness of security guards and security devices throughout
            NMNH; evaluated access to storage facilities by outside visitors, volunteers, and
            contractors; examined inventory controls; and identified missing or misplaced objects by
            testing inventories from six of seven departments. We also compared NMNH practices to
            other museums, including the American Museum of Natural History in New York. A
            detailed description of our audit scope and methodology is contained in Appendix A.

            BACKGROUND
            NMNH, with the largest natural history collection in the world, manages over 126 million
            objects, which account for over 92 percent of all the Smithsonian's collections. Of these
            objects, approximately 89 million (or 70 percent) are housed at the main NMNH building
            on the Mall, with the remainder at the Museum Support Center (MSC) in Suitland,
            Maryland, and smaller storage facilities in Columbia, Maryland and Virginia suburbs.
            Table 1 shows how the collections are divided among the seven NMNH departments.




            I   Employee and Contractor Screening Measures, Report No. A-05-07 (August 21, 2006); Management
                Advisory Report on Access Controls, Report No. M-05-05 (July 25,2006).



                                                                 1
                                                  ADMINISTRATIVELY CONFIDENTIAL 


                                          Table 1 

                         Collection Objects by NMNH Department 





              Paleobiology                                    42.7
              Invertebrate Zoology                            34.3
              Entomology                                      32.5
              Vertebrate Zoology                               9.6
              Botany                                           4.8
              Anthropology                                     2.3
              Mineral Sciences                                 0.3

                 Total                                       126.5

Smithsonian Directive (SD) 600, Collections Management, states that the Smithsonian will
provide reasonable access to its collections, both physical and intellectual, and will
balance that access with preservation and protection concerns. The policy further
requires that the Smithsonian establish authority, policies and procedures, and assign
responsibility to control, monitor, and document all access to and use of its collections.
Responsibility for the physical security of perimeters of and entrances to collections rests
with the Office of Protection Services (OPS), a division of the Institution's Office of
Facilities Engineering and Operations, as well as museum collecting units.

The Smithsonian's Security Handbook directs OPS to implement a comprehensive
protection and physical security program that includes access and property control
requirements to protect collections from unauthorized handling and removal or theft.
The Handbook requires OPS to install physical and electronic surveillance and to manage
the security officer staff, the alarm system and other security equipment. In addition to
these requirements, OPS issued "Protective Design Standards for Technical Security,"
which outlines minimum technical protection requirements for vaults, collections
storage, and other collections areas. OPS must also conduct surveys of major facilities
and offices at least once every 5 years to determine overall risk and to recommend
appropriate security measures.

Museum collecting units are responsible for ensuring that collections are maintained in
controlled areas that are adequately protected against theft and vandalism. SD 600
specifies that each collecting unit should develop, implement, and adhere to an
authorized, written collections management policy to ensure the proper physical care of
its collections. It further states that each unit should provide documentation of each
collection item that will identify, locate, and give an account of its condition to ensure
maximum accessibility consistent with its security.

To further deter theft and maintain accountability over the collections, SD 600 requires a
continuous inventory system, a process that includes (1) conducting, supervising, and
approving cyclical inventories and reconciliation of collection records; (2) implementing




                                             2

                                                   ADMINISTRATIVELY CONFIDENTIAL 


a written cyclical inventory plan; and (3) ensuring the separation of duties and
implementation of other internal controls to prevent the unauthorized removal of
collection objects.

RESULTS IN BRIEF
Overall, we concluded that physical security and access controls should be strengthened
to reduce the risk of theft or damage to NMNH's collections. In particular, we found that
although security was adequate in some departments, several areas need improvement:

       • 	 Missing or inoperative security devices. There were many missing or inoperative
           security devices that could allow non-staff access to the collections, such as
           improperly secured doors; missing and inoperable card access readers; areas
           without alarms or with non-functioning alarms; unlocked cabinets; and an
           insufficient number of cameras or other devices to monitor individuals
           working in high-value collections areas.

       • 	 Unlocked storage and poorly controlled keys. A significant portion of NMNH's
           collections were stored in unlocked cabinets or in locked cabinets in storage
           areas where the keys were poorly controlled. NMNH lacked a policy
           governing the use of keys and, in some departments, there were little or no
           controls over keys.

       • 	 Inadequate interior guard coverage and in-person response to alarms. Security
           officer coverage of the collections areas has been significantly reduced, and
           officer response to alarms has been inadequate. OIG staff successfully entered
           collections storage areas, accessed collections, and exited through perimeter
           doors undetected. When alarms sounded, no security officers responded in
           person.

       • 	 Inadequate supervision ofnon-staffin collections areas. Contractors,
           researchers, volunteers, maintenance staff and visitors were often left alone in
           collections areas without supervision. Visitors' and employees' bags were not
           checked going into or out of collections areas, contrary to policies and
           procedures at other museums.

Staff shortages and budget constraints are the main reasons management cited for the
problems we identified. In light of these constraints, we believe NMNH and OPS officials
should, at a minimum, immediately prioritize deficiencies, focusing on those that pose
the greatest risk to the security of the collections, and assess the cost of complying with
technical security standards. Management should also institute and enforce stricter
controls over access to the collections, including access to keys to locked storage areas and
cabinets, as well as over supervision of visitors, instead of relying on the goodwill and
trust of employees and visitors to the collections areas.

Underscoring a key finding from Concern at the Core, we also found that NMNH
generally did not have established inventory plans or did not follow plans that were



                                              3

                                                   ADMINISTRATIVELY CONFIDENTIAL 


developed. With few exceptions, cyclical inventories were not conducted, and inventory
records we reviewed were inaccurate or incomplete. Based on our limited tests of the
collections inventory, we identified 53 of 2,320 objects sampled that were either missing
or had been misplaced. Museum staff subsequently located 40 of the 53 objects. These
and other weaknesses make it difficult to account for items and their location, thereby
increasing the risk of loss or theft. These weaknesses also mean that collections may not
be readily accessible to researchers, educators, and others from inside and outside the
Institution.

According to management, NMNH does not have adequate staff to perform their own
work at an acceptable rate, much less document inventory control over the collections,
update their collections information systems, and pursue any problems that are found.
Accordingly, NMNH should implement the recommendations of Concern at the Core
and, more specifically, develop plans for a prioritized cyclical inventory; make inventory
goals a part of collections managers' performance plans; and finalize the museum's
inventory plan.

RESULTS OF AUDIT
Physical Security over the Collections Needs Strengthening
We concluded that physical security over the collections at NMNH needs strengthening
to reduce the risk of theft or loss. First, numerous security devices were either missing or
inoperative. Second, a significant portion ofNMNH's collections were stored in
unlocked cabinets or in locked cabinets in rooms where the keys were poorly controlled.
Third, over the last few years security officer coverage assigned to the collections areas has
been significantly reduced and responses to alarms have been inadequate. Finally,
supervision of contractors, researchers, volunteers, and other visitors to the collections
areas was minimal.

Interior Perimeter Security Devices Were Missing or Inoperative

In December 2004, OPS issued design standards delineating protection requirements for
Smithsonian facilities, including security devices for vaults, collections storage areas,
exhibit galleries, and building perimeters. For interior perimeters of collections areas, the
standards require the installation of cameras, intrusion-detection sensors, door access­
card readers, and other security devices based in part on the value of the collections to be
protected.

To its credit, in May 2005, OPS completed a detailed assessment of all security devices at
NMNH's Mall building. That assessment noted at least 190 instances where devices did
not meet technical security standards and, thus, could allow unauthorized access to the
museum's collections storage areas. The deficiencies included missing or inoperative
sensors on doors; a lack of motion detectors or cameras in some high-value collections
areas; and stairwell doors with access to collections areas left unlocked.




                                              4

                                                        ADMINISTRATIVELY CONFIDENTIAL 


Through observations and tests of security devices as well as discussions with OPS
officials, we detennined that most of the S''!ll!'ficiencies identified in the OPS
assessment had not been corrected. Many a:          card-access readers were inoperable
and door locks in multiple areas were broken, ena ling easy access to several floors of
collections storage. For example, OIG auditors, without displaying any identification,
repeatedly succeeded in entering two sets of unlocked doors that led tala        ol

collections storage areas, which housed numerous unlocked cabinets corltalnmlg f"l1'\lpr'N
valued at several thousand dollars each. Auditors also entered a maintenance area near
                       through unlocked doors, gaining access to multiple floors of
            areas see photo below). Appendix C, a floor diagram of one collections area
in the NMNH Mall building, illustrates these security device problems, showing missing
cameras and motion detectors, unlocked doors, and inoperable card readers.

                                              OPS officials stated that although it is their desire
                                             to lock          -- access doors, the previous
                                              NMNH               requested that the doors be left
                                              unlocked so his staff could move freely
                                              throughout the building. OPS also indicated that
                                              they are studying how to keep             doors
                                              locked and also comply with                fire and
                                              life-safety                            the access
                                              doors near la                   OPS officials
                                              informed us                     ar doors had an
                                              architectural design problem that was not
                                             compatible with the current card readers;
                                             however, they stated that the design work for new
                                             doors will be completed in the near future.

At the MSC facility, we found that the majority of
"''''rllrl1h.r devices were in        and operable. However,
                                     was not alarmed, and the
                                    and were             left
                      We also observed that the
                          as well as those to the
                            not been working for some
                      able to enter and gain access to
                     collections objects that were on a table to
      PH)Ce:ssela. After we brought these items to OPS'
attention, OPS and collections management officials
informed us that they repaired the card access readers
on the la                 doors and the SD807 Ex 2
doors were

In discussing the security device issues with OPS management, we noted that OPS had
not fully assessed the cost of bringing NMNH security devices into compliance with its
security standards, nor had it developed a prioritized list for making the needed
improvements. For some deficiencies, management postponed fixes until major
renovations planned for the museum, such as the new Oceans Exhibit (to open in 2008),




                                                   5

                                                   ADMINISTRATIVELY CONFIDENTIAL 


are completed. OPS officials cited stafflimitations and budget constraints as the primary
reasons for not correcting the security device deficiencies.

OPS officials indicated that their budget submissions go through several layers of review,
including the Institution's Office of Planning Management and Budget and eventually to
the Office of Management and Budget, and their requests are frequently denied. OPS
provided us with its Security Design Standards Funding Plan, which contains $2.2 million
in proposed security improvements for NMNH. About $950,000 of this amount is
budgeted for the installation and upgrading of various access controls in the collections
storage areas. We noted that the plan does not contain specific completion dates or
identify specific collections areas, and that OPS officials stated these funds are designated
for FY 2009.

Physical Safeguards Within Collections Areas Were Inadequate
The primary physical safeguards used to protect museum objects within the collections
areas themselves are vaults, access doors with       and          cabinets with locks. At
the NMNH Mall building,
_ _ _ _ and                                  areas                               access
~inets with locks. However, we observed that a substantial number
of storage cabinets, some of which contain high-value collections, do not have locks.
Further, for those cabinets and collections areas with locks, controls over the assignment
and tracking of keys were poor, weakening the protections afforded by the physical
controls.

                                        For example, in four of seven departments, there
                                        were hundreds of unlocked cabinets containing
                                        collections of high commercial, scientific, or
                                        educational value. The more valuable scientific
                                        collections contain "type" specimens, which are
                                        considered to be the original reference or perfect
                                        specimen of a given          and are crucial for
                                        classification. In the              department,
                                        some of the most                      s are stored in
                                        unlocked cabinets that can be easily reached from
                                        stairwells and doors that lead to ublic areas. In
                                        two other                              and
                                                                                estimated
                                               were         and 21,000 type specimens,
                                        respectively, stored in unlocked cabinets.




                                              6

                                                        ADMINISTRATIVELY CONFIDENTIAL 





                                            We also observed that the~ room of the
                                               :I    ,             is often ~ throughout the
                                                    "'VJ""'~,U\J'U" staff and volunteers, whose
                                            work involves items mainly in unlocked cabinets.
                                            Although this area has outside locked access doors,
                                            there are at least nine individuals who have card
                                            access to these outside doors and thus could enter
                                            the             room. The objects in the
                                            room are           of considerable monetary          ,
                                            such as one specimen that the collections manager
                                            estimated was worth_. In our tests of
                                            inventory purchases ii'iade"'in FYs 2003 and 2004,
                                            we found that 116 out of 123           .       which
                                            were part of a lot valued at                        were
                                            also stored in unlocked ....<UJLU"''''




According to management officials, a lack of funding has hampered their ability to
procure new cabinets with locks. They indicated that new cabinets could easily exceed a
thousand dollars each and there were literally thousands of storage cabinets without locks
throughout the museum. In addition, shortages of management and staff resources have
made it difficult to provide adequate oversight of volunteers and contractors who work
around collections stored in the unlocked cabinets.

While inthe short-term there is probably little NMNH officials can do to procure new
locking cabinets, they can reduce the risk to the collections through better management of
keys for those cabinets that do have locks. According to Suggested Guidelines for Museum
Security/ museums should maintain a written security policy and practice sound key
control and retrieval. The Guidelines state that, at a minimum, all keys issued should be
signed for on a register; there should be a key retrieval system to make sure all keys are
returned when an employee leaves; all keys should be stored in a secure space and not be
removable without authorization; and one person should be responsible for key control,
issuance, and retrieval.

NMNH has no comparable museum-wide procedures or guidelines for distributing
cabinet and storage room keys, and we found that controls over these keys vary widely
among its departments. At NMNH's Mall building, collections managers indicated that
the smaller departments have as few as two to four staff members who have key access,
while the largest departments have as many as 41 people (including non-staff with
emeritus status) with various degrees of key access. One collections manager told us that

2 These standards were adopted by the Standing Committee on Museum, Library, and Cultural Property

Protection of the American Society for Industrial Security and the Museum Association Security Committee
of the American Association of Museums, Revised 1997.




                                                   7

                                                               ADMIN~TRATIVELYCONFIDENTIAL

her department does not track cabinet keys once they are given out, whether to
volunteers, contractors, researchers, or students. Clearly, the lack of written policy on
accountability for cabinet keys and loose controls in some departments increases the risk
of theft and loss of collections objects.

At MSC, with the exception of the Anthropology's Ethnology Division, accountability for
access door keys to collections is also a concern. The MSC Management Officer informed
us that she does not have an inventory of all the keys at the facility and does not know
who has keys or where they are all located. She believes that all doors should be re-keyed
and that she should maintain inventory control over all the keys to the collections areas.
We note that the American Museum of Natural History (AMNH) in New York City
recently took this step, re-keying all access doors to collections areas to implement better
controls over their key inventories.

Security Officer Deployments Were Strained and Responses to Alanns Were
Inadequate

Our audit identified two issues related to the use of security officers at NMNH, who are
critical to deterring the loss and theft of collections. First, staffing levels for security
officers at the NMNH Mall building have steadily decreased from a high of 112 in
November 2003 to the current level of 78, a reduction of 34 positions or about 30 percent.
OPS and NMNH security managers attribute the reductions at NMNH to budget
constraints and the normally high turnover rates for security officer positions. Further, in
response to congressionally mandated post-September 11 Homeland Security priorities as
well as resource constraints generally, OPS eliminated 21 guard posts3 and redeployed its
security officer force to focus on the external perimeter areas of the museum,
concentrating coverage on controlling public entry into the museum rather than securing
the interior collections areas. As a result, OPS had not fully implemented staffing
formulas it previously developed that took into account the extent of the patrol area and
the value of the collections.

For perspective, while the NMNH Mall building is the Smithsonian's largest museum,
encompassing over 1.3 million square feet, receives an estimated 5 million visitors
annually (it is the second most visited of the Smithsonian museums), and houses over
70 percent of NMNH's collections, only about 10 percent of the Institution's security
officer force is assigned to NMNH. Consequently, the current assigned level of 78
security officers is considerably lower than museum industry standards. According to the
International Committee on Museum Security, for natural history museums, security
coverage should be one guard for every 7,000 square feet. Our inquiries of non­
Smithsonian museums identified comparable standards, with ideal ranges of one security
officer for every 8,000 to 9,000 square feet. Using industry-wide standards as a guide,
NMNH should have between 144 and 162 security officers for its Mall building, which is
about double the current staffing leveL

According to OPS records, the total number of authorized security officer positions
Institution-wide declined from 1,004 in 2003 to 816 in 2006. However, during this

1   A guard post is an area patrolled by a security officer.



                                                          8

                                                  ADMINISTRATIVELY CONFIDENTIAL 


period, the actual number of filled positions remained about the same, at slightly less than
800. Moreover, the opening of new museums (the Udvar-Hazy Air and Space Center and
the National Museum of the American Indian) and the reopening of the National Portrait
Gallery and American Art Museum have created severe strains on OPS' ability to deploy
adequate numbers of security officers at each facility.

The second issue we identified, based on discussions with collections managers as well as
our observations during walkthroughs and visits to the NMNH Mall building and MSC, is
that security officers frequently did not respond in person to alarms that sounded in the
collections areas. We noted that the lack of response was contrary to industry best
practices and Smithsonian policy. For example, Suggested Guidelines for Museum Security
requires that at a minimum, whenever an alarm sounds, an officer or other person with
security training should respond. These guidelines also emphasize that alarms should not
be ignored and that assumptions should not be made about their origins. In addition,
OPS' Unit Control Room Procedure Number 42 requires control room officers in each
facility to immediately acknowledge audible alarms and dispatch security personnel as
appropriate.

During our walkthroughs we observed the lack of officer response in person to alarms. In
one department, we entered two sets of unlocked doors that led to collections storage
areas with valuable items in unlocked cabinets. Although alarms sounded as we entered,
no security officer ever responded in person. The collections manager for this
department indicated that because the outer doors provide access for lll
_ _ _, she has never witnessed officers responding to the alarms.                   ,
~d a back door that led outside from one of the pods, an alarm sounded but
no security officer appeared. We followed up with a security officer who said he did not
get a report of any alarm going off. According to MSC collections managers, OPS officers
rarely investigate door alarms, and sometimes the alarms on doors between connecting
buildings will stay on for several hours before security officers shut them off.

OPS management officials informed us that although Smithsonian security procedures
require a security guard response in person to a sounded alarm, they permit only
supervisory officers to enter collections storage areas to respond to alarms. Management
again indicated that staffing constraints were problematic, and that there simply was not
enough supervisory coverage to respond to all alarms. At the time of our audit, there
were only 11 supervisory officers assigned to NMNH to cover all shifts.


Supervision ofNon-Collections Staff and Visitors Was Minimal
Closely monitoring non-collections staff, contractors, and other visitors while in
collections areas is essential to minimizing the risk of theft, damage, or the loss of
collection objects. Yet, in every department we reviewed, we either observed or were
informed by collections officials of instances where volunteers, contractors, and non­
collections staff that they were familiar with, such as maintenance workers, researchers,
educators, and students, had unsupervised access to collections areas including those with
unlocked cabinets and valuable objects.




                                             9

                                                     ADMINISTRATIVELY CONFIDENTIAL 


SD 600 states that the Institution will provide reasonable physical access to its collections,
but that this policy must be balanced with preservation and security concerns. Other
industry guidelines are more specific. Suggested Guidelines for Museum Security
recommends that all museums adopt a policy regulating access of all persons. Two non­
Smithsonian museums we contacted, the American Museum of Natural History in New
York City and the Cleveland Museum of Natural History, have strict guidelines for non­
staff access. They prohibit general access to the collections for volunteers, contractors,
and outside researchers and educators and require that such individuals, when in
collections areas, work under the direct supervision of a scientific staff member at all
times.

We found that NMNH collections management oversight of visitors in the collections
areas was not nearly as rigorous. During our audit we noted the following:

    • 	 The bags and personal belongings of employees, contractors, researchers,
        volunteers, and other visitors were not inspected on entry to or exit from
        collections areas at the NMNH Mall building or at MSC. Moreover, security
        personnel rarely checked for property passes when employees left the building
        with museum property. In contrast, we found that screening of all employees and
        visitors is standard in the private sector. The American Museum of Natural
        History in New York City, for example, routinely checks the bags of all visitors
        going in and out of its collections storage areas.

    • 	 Non-Smithsonian researchers were frequently left alone in collections storage
        areas with unlocked cabinets. Further, maintenance and repair contractors
        occasionally worked in collections storage areas containing unlocked cabinets
        without the collection manager's knowledge or oversight, moving storage cabinets
        around and exposing the objects to damage or other loss.

    • 	 At MSC, according to the facility manager, individuals 

        can walk around unnoticed and some visitors are given 

        access cards to the storage areas (known as pods). 

        These visitors are sometimes allowed to go into the 

        pods with no supervision. Many areas in these pods 

        contain valuable objects and artifacts on open shelving. 


Collections officials we spoke with acknowledged the
importance of proper monitoring of individuals in collections
areas, but they believe it is unreasonable to require the same
degree of oversight over all types of non-staff visitors.
Collections managers stated that they do screen and consider
the credentials of each visitor when granting access to the collections. However, they
indicated that in the museum and research fields, it is a matter of professional courtesy to
leave known colleagues from other institutions unsupervised. The managers did state
that severe staff shortages prevented them from providing the degree of oversight they
would like. They indicated that despite steady growth in the number of collections
objects - which has increased by over one-half million since FY 2003 - the number of
NMNH collections staff has decreased by about 4 percent from FY 2003 to FY 2006.



                                              10 

                                                   ADMINISTRATIVELY CONFIDENTIAL 


RECOMMENDATIONS
To strengthen physical controls over access to the collections storage areas and oversight
of individuals working in the collections areas, we recommended that the Director, OPS:

   1. 	 Prioritize the repair, replacement, and upgrading of security devices identified in
        the 2005 Assessment Report that are related to direct or indirect access to the
        collections storage areas, and prepare a comprehensive budget and establish an
        appropriate timeframe for correcting the cited weaknesses.

  2. 	 Conduct a security assessment at MSC similar to the one done in 2005 at the 

       NMNH Mall building and develop a plan to correct significant deficiencies. 


   3. 	 Re-emphasize OPS requirements for security officer responses to alarms and
        consider expanding the supervisory pool of security officers that would be allowed
        to enter the NMNH collections areas to provide needed coverage.

We also recommended that the Director, NMNH:

  4. 	 Require each department collections manager to implement strict controls over the
       inventory and use of keys to collections storage cabinets, and develop a detailed
       budget and plan for replacing old cabinets without locking mechanisms with
       storage cabinets having locks for all collections with any significant commercial,
       scientific or historical value.

   5. 	 Establish requirements for closer supervision of non-collections staff, visitors, and
        other individuals allowed access to the collections, and consider screening less­
        known or new visitors as they leave higher-value collections areas.

   6. 	 Provide a list of specific high-value collections storage areas to OFEO to be used by
        OFEO to notify NMNH collections officials when outside contractor personnel will
        be working in these areas.


Inventory Control Measures Are Not in Place or Are Inadequate
An inventory, which SD 600 defines as an itemized listing of collections items, groups, or
lots that identifies the current physical location of each item, group, or lot, is a
fundamental and critical component of good collections care. As stated in Concern at the
Core, "Knowing what you have and where it is ... is essential to deterring and detecting
theft and providing access."

SD 600 requires each collecting unit to establish and implement a written cyclical
inventory plan. SD 600 also refers to an "Implementation Manual" that is meant to
provide technical guidance and information to assist collecting units in implementing the
Directive. However, the Manual, which is being developed by the Director of the
Smithsonian's National Collections Program, was still in draft form at the time of our
audit, and therefore was not available for use by the collecting units. The Smithsonian's



                                              11
                                                           ADMINISTRATIVELY CONFIDENTIAL

National Collections Program Director is responsible for reviewing and approving
museum collections plans.

NMNH does not maintain accurate inventory records of all its collections objects, which
makes it difficult to account for, identify, and locate a specimen or object for research or
exhibit. Also, museum staffs have not performed cyclical inventory reviews as required by
their own department inventory policies, inventory records have not been updated to
reclassify species name changes or to identify locations where objects have been moved,
and inventory records are not in one complete format. Finally, our testing of the
inventory showed a number of missing or misplaced objects.

Inventory Plans axe Incomplete or Not Followed
                                                                                                      4
NMNH does not have a formal, museum-wide Inventory Plan as required by SD 600.
Further, we found that only two departments had their own inventory plans, but those
plans were outdated, lacked specific timeframes for cyclical inventories, and were not
followed. To cite just a few examples, the Anthropology Department's plan, which was
created in conjunction with its move from the Mall building to MSC during 1991-1995,
has not been updated since that time.                .           is being conducted of the
MSC safe, which contains                                             the plan also requires
inventories of other             on a           us                    not define continuous
basis. The division of Physical Anthropology does conduct a minimal form of cyclical
inventory each time objects are moved to other cabinets, maintaining all previous
locations in its database, and thereby making it easier to locate an object. Paleobiology
also has an inventory plan requiring an annual inventory of all collections with a
commercial value of over $5,000. However, the plan, developed as a result of a 1992 OIG
audit recommendation, has not been updated since 1993, and the last inventory was
conducted in 2000.

Without a museum-wide Collections and Inventory Plan, the departments lack central
guidance for prioritizing and conducting cyclical inventories. They also may not know if
any collections objects are missing. Yet the method to conduct cyclical inventories has
been in place at the Institution since the late 1990s. The Institution's statistician, who has
an office in the NMNH Mall building, developed a program to use for sample inventory
reviews that was made available to all departments. Only Paleobiology used this program,
and that was for a one-time inventory in 2000.

One way to ensure that more attention and resources are devoted to this area is to make
individuals accountable. For FY 2006, as suggested by Concern at the Core, the NMNH
Director's performance evaluation has a requirement to develop a cyclical inventory plan,
which puts this responsibility at the highest level. We believe this responsibility should
extend further in the organization and that the performance standards for department
chairs should also incorporate specific inventory goals.




• We note that at the time of our audit, NMNH's Collections Management Policy, which requires cyclical
inventory plans, was still in draft and had been submitted to the Office of General Counsel for approval.




                                                    12 

                                                    ADMINISTRATIVELY CONFIDENTIAL 


Records Are Incomplete or Inaccurate
NMNH does not have a complete or accurate count for all inventory records and objects.
The museum maintains a combination of electronic and paper-based records that in
some instances are incomplete and inaccurate and in others are duplicative. For example,
museum officials told us they had converted approximately 5.8 million records (or
12 percent) of about 50 million records at NMNH into an electronic collections system.
But as Concern at the Core noted, the number of electronic records may not be accurate
because of duplicate records in the database, records remaining in the database even after
the objects have been deaccessioned, and objects on long-term loan but still listed in the
database.

To further complicate the problems of inaccuracy and duplication, paper records that
have not been converted to electronic collections systems are maintained on a
combination of ledger books, card files, and other documentation, some of it overlapping.
As a result, it has been difficult for museum personnel to identify the correct number of
records.

Also, as reported in Concern at the Core, NMNH staff was unable to catalogue all objects
to the appropriate item or lot level or to reconcile or correct conflicting data. The report
stated that NMNH staff estimated that insufficient records and documentation affected
62 million of its objects. As a result, NMNH still had significant catalogue work to be
completed. In our opinion, conducting a complete collections inventory and
meticulously updating collections records are essential for ensuring the accuracy of the
museum's collections records.

Some examples of the inaccurate or incomplete records we found in our inventory review
of high-value objects included:

   • 	 Entomology did not have any inventory records for a collection of 600 rare 

       butterflies kept in locked cabinets. 


   • 	 Invertebrate Zoology maintains a valuable Bledsoe seashell collection that
       numbered over 7,000 objects (4,210 records) and was appraised for almost
                        when it was offered to the Institution in 1988. However, a complete
        ..,u.,..,i-.",.u has not been done since January 1989, when the collection numbered
       only about 4,800 objects. An OIG investigation at that time found a lack of
       security, accountability, and control for this collection, and the missing objects
       went unresolved. Adding to this accountability problem, the last inventory of
       Bledsoe seashells identified about 4,400 objects, or about 400 fewer than the
       complete inventory done in 1989.

   • 	 In Paleobiology and Vertebrate Zoology (Birds), 14 objects were reclassified and
       had either a taxonomic name change or were upgraded from a sub-species to a
       species, but these changes were not reflected in both the electronic record and in
       the inventory record location.




                                             13 

                                                    ADMINISTRATIVELY CONFIDENTIAL

A backlog in accessioning, the formal process of recording a new object into a collection
unit, compounds the problem of incomplete records. Concern at the Core noted that in
FY 2000, NMNH had a processing backlog of over 5 million objects. The accession
documents created for this process do not form a complete record and need to be
catalogued for security and research purposes before the objects can be formally entered
into a collections unit. If objects come into a backlogged department, they are susceptible
to loss or theft because they will lack identifiable records and locations and may be left on
open shelves and tables or in unlocked cabinet drawers. NMNH collections managers
indicated that at the rate they are able to catalogue with current statT and funding, they
cannot keep up with new collections, much less make a dent in the retrospective data
capture needed.

According to NMNH managers, staffing shortages and budget constraints have been the
major reasons NMNH has been unable to update and maintain an accurate and current
inventory of its constantly growing collections inventory. Federal funding for NMNH
collections staff has declined 59 percent in the last 10 years. In FY 2003, NMNH had
158 full-time equivalent employees to oversee 125.9 million objects and specimens. As of
the end of FY 2005, the collections inventory had increased by over one-half million
objects, yet the collections statThas decreased to 152 full-time equivalent employees.
Although NMNH has three times the collections staff of any other Smithsonian museum,
it also has 20 times the number of collection items of the next largest Smithsonian
museum. The NMNH collections continue to grow, which will only make it more
difficult for NMNH statT to correct inventory weaknesses.

Because of the extensive resources needed to review these millions of records, we believe a
more practical task would be to prioritize collections with significant commercial,
scientific, or historical value and then accurately count and maintain electronic records of
those objects.

A Sample Inventory Review Showed Missing or Misplaced Objects

To test the accuracy of the inventory records, we sampled inventory in six NMNH
departments. Our results, summarized in Appendix B, show that of 2,320 objects (1,807
records) in 15 inventory samples from the six departments, there were initially 53 objects
that were either missing or could not be readily located. Of these 53 objects, 40 were from
four inventories sampled in Gems and Minerals. By the close of our audit, 35 of the
40 were located. From the Botany sample review, we originally identified 10 objects that
could not be found; the collections manager eventually located 5. We performed a
100 percent review of the Martian meteorite inventory, and NMNH collections officials
have not been able to locate 3 of those 112 objects.

At the close of our audit, one of the statistical samples we reviewed still had objects that
could not be located. Based on our Gem sample, which had 2 objects that could not be
located from the 192 objects inventoried, we estimated that slightly more than 1 percent
of the gems were either misplaced or missing. We also found there was a lack of
documentation for some objects in our mineral sample. We observed four instances
where the collections staff had listed an object as being exchanged with an outside entity,
but they could not document what item(s) had been received in exchange.



                                             14 

                                                    ADMINISTRATIVELY CONFIDENTIAL 


RECOMMENDATIONS
To strengthen inventory controls and identify and locate its most valuable collection
objects, we recommend that the Director, NMNH, follow the suggestions of Concern at
the Core, and:

   7. 	 Work with the National Collections Program Director to finalize the museum's
      Collections Management Policy and Inventory Plan and the SD 600
      Implementation ManuaL

  8. 	 Direct the Department of Mineral Sciences to conduct a complete inventory and
       update the inventory records for all valuable gems and minerals and develop a
       follow-up plan to locate all missing objects.

  9. 	 Require that the performance plans of department chairs contain specific inventory
       goals, including developing and implementing cyclical inventory plans, as a
       measure of job performance for appraisal purposes.

   10. Direct the Registrar to work with department chairs to develop a priority list of
       NMNH's most valuable objects and type specimens and, with the assistance of the
       Institution's statistician, determine the appropriate percentage or number of those
       objects to review for each cyclical inventory.

   11. Instruct the Associate Director and Registrar for Collections, and the Assistant
       Director for Information Technology, to develop and implement a plan, initially
       for all high-value objects and type specimens, to update and convert all electronic
       and paper records so they are consistent in documenting the status of the
       collections inventory.

MANAGEMENT RESPONSE
The Directors ofNMNH and OPS provided formal written comments to our August 23,
2006 draft report. The Directors generally concurred with our findings and
recommendations, except for recommendation number six, and identified actions
planned for each recommendation, as well as target dates for their completion. A brief
summary of management's response follows.

Regarding recommendations 1 through 3, OPS has requested funding in the FY 2009
capital program to bring all collections storage areas in the Mall building up to OPS
Technical Security Standards. If the requested funding is appropriated, improvements
should be                 by January 2010. In the interim, OPS       to repair the. and
                       card readers and the doors near 	                  Similar security
              fJ,,,,IUH..U for MSC in the FY 2010


On the issue of security officer responses to alarms, OPS reiterated its policy to respond to
all alarms in a timely manner at every SI facility. By October 2006, OPS will implement a
number of actions, including the establishment of a new dedicated post named Collateral
Dutyl Alarm Response Officers, a weekly review of alarm activity reports with appropriate



                                             15 

                                                     ADMINISTRATIVELY CONFIDENTIAL 


follow-up actions, and training for staff causing repeated alarm activations on proper
access procedures. The full text of OPS' comments is attached as Appendix D.

Recommendations 4 through 11, which were addressed to the Director, NMNH, covered
the physical safeguards over the collections areas as well as inventory procedures and
recordkeeping. NMNH agreed to issue a policy to strengthen controls over the use of
keys to collections storage cabinets and, by January 2007, to develop a priority listing and
detailed budget for acquiring storage cabinets with locking mechanisms for all collections
with significant commercial, scientific, or historical value. NMNH also will review its
visitor and collections procedures and issue updated policy guidance by March 2007.
NMNH disagreed with recommendation six because it believed it would not be prudent
to identify specific high-value areas of the collections to non-staff. Instead, it proposed to
provide OFEO with a list of department chairs and collections managers and their office
phone numbers mapped to the areas of the buildings so that they will be contacted when
any outside contractor personnel need to work in those areas.

NMNH also agreed to finalize the museum's Collection Management Policy by
January 2007 and complete an inventory of the highest-value gems and minerals by
June 2007. NMNH also will include inventory goals in the performance plans for
department chairs for the evaluation cycle beginning in January 2007. While NMNH
acknowledged that additional high-value objects still need to be inventoried and agreed to
develop priority lists and determine appropriate percentages or counts for required
cyclical inventories by the fourth quarter ofFY 2007, it noted that it did not have the
resources to do the inventories. Further, while NMNH agreed to develop an
implementation plan to update and convert all electronic and paper records to consistent
supportable collections inventory records, the Director indicated that at the current level
of resources it would be a multi-year effort and did not provide an end date. The full text
ofNMNH's comments is attached as Appendix E.

OFFICE OF THE INSPECTOR GENERAL COMMENTS
Management's proposed actions are generally responsive to our recommendations and we
consider the recommendations resolved. We note, however, that several
recommendations are not scheduled to be completed until January 2010 or beyond, and
are heavily dependent on the availability of additional resources. Given the sensitive
nature of the weaknesses we identified and their effect on the security and accountability
of the collections, we expect that management will make every effort to either acquire or
reallocate resources necessary to ensure full implementation of the corrective actions as
soon as is practicable.




                                              16 

                                                     ADMINISTRATIVELY CONFIDENTIAL 


Appendix A. Scope and Methodology.
The objective of this audit was to determine ifNMNH's physical security was adequate to
safeguard the collections and collection inventory controls were in place and adequately
working to ensure the collections are properly accounted for in compliance with
collections management policies and procedures.

Physical Security

To assess physical security at NMNH, we toured the collections storage areas of all
NMNH's departments to inspect and test security devices. We also toured two additional
storage facilities in Maryland, the Museum Support Center (MSC) in Suitland and the
Human Studies Film Archives storage building in Columbia. We went through alarmed
entrances to determine the response of security officers and viewed the guard monitors in
the security control room in the mall building. We reviewed the 2005 OPS Security
Assessment Report to identify all devices needing replacement or repair and discussed
with OPS officials plans for correcting these devices as well as how they allocate security
officers.

We met with collections management officials in each department to discuss their
concerns with physical security, communications with security officers, and policies and
procedures regarding access to collections for outsiders such as educators, researchers,
students and others who may have an interest in a particular collection or contractors
working in the collections storage areas. We also held discussions with curators and
collections managers and reviewed the departments' controls over the assignment and use
of cabinet keys.

To gain information on how other museums approach the physical security of their
collections, we toured the American Museum of Natural History in New York City and
obtained their policies, procedures, and other data. We obtained similar information
from the Cleveland Museum of Natural History, as well as several publications,
guidelines, and reports from national museum associations and committees.

Inventory Controls

To evaluate inventory controls over collections at NMNH, we examined both paper and
electronic inventory records for a sample of collections from the seven departments. We
traced the record for each sample selection back to its location in the storage or exhibit
area. With input from the Chief of Collections (Registrar), and the collections managers
from each department, we selected our samples from those collections considered most
valuable from a commercial, historical, or scientific perspective. Samples were designed
on a statistical, judgmental, or 100 percent basis, depending on the collection size, its
storage location, and other factors such as the extent of data in the records. We identified
the samples from the records or documents, not from individual collection objects,
because NMNH's inventory records often included more than one object or specimen.
We also held discussions with the Institution's statistician on prior tests of collections and
guidance on sampling methodologies for this audit. In summary:




                                              17 

                                                  ADMINISTRATIVELY CONFIDENTIAL

    • 	 We selected judgmental samples from the Paleobiology Department (specimens
         valued at over $5,000 with some in unlocked cabinets or on open shelves); the
         Invertebrate Zoology Department (Bledsoe seashells, which were reported in past
         OIG audits); the Vertebrate Zoology Department (Hawaiian Honeycreeper birds,
         which collections officials identified as having the most complete records); and
         the Physical Anthropology (human              and                     (Herbarium
         Solanaceae), which were both located in                      and were near
        __                                                                    selected an
        'ii'iit'ia'I"'(ems                         Clences Department to learn more about
         the population before designing statistical samples.

    • 	 We took random statistical samples from the                                  ber
        and Burgess Shale collections), Gems (located in
        Minerals (located in                  and Anthr                             at
        MSC). The samples were                   an electronic inventory database using
        random generators and were designed to reflect a 95-percent confidence level, a
        1.99 percent error rate (from past audit experience of OIG inventory audits), and
        a 1.90 percent precision rate.

    •	                                                     in the Martian meteorites
                                                                           and Mineral

         llliiiid
         collection                  over                                at the Mall
                      the Anthropology vault at MSC that contains S0807 Ex. 2


    • 	 For the Entomology Department, we chose a valued butterfly collection that was
        kept in locked cabinets, but because there were no detailed inventory records, we
        were unable to evaluate this collection against the department's records.

Appendix B shows details of the sample inventories selected and the results from our
tests.

We conducted our audit between July 2005 and August 2006 in accordance with
Government Auditing Standards, as prescribed by the Comptroller General of the United
States, and included tests of management controls as we considered necessary.




                                           18 

                                                                  ADMINISTRATIVELY CONFIDENTIAL
AppendixB.

                                                              OIG Sample Inventory - NMNH



                                  Total Est.-                               Sample Selection                Size of               Sampling            Sample Size (b)         Missing'
    i2!2artment               POl!ulationfltems                  ~2ecimen T1£2el Obl!!l~ ~[2l!1!       Collection Group           Method tal      No. obiects NO,_J=ds       MisDlaced
                                                                                                          (Recordsl
    Paleobiology                  42,670,000                  Burgess shale                                  3,026                statistical          171           171         0

                                                              Amber collection 	                            5,070                 statistical          381           175         0

                                                              Objects over $5,000 	                          415                  judgment             83             83         0


    Anthropology                   2,250,000 	               _       Gold artifacts                          217                  100 percent          217           217         0

                                                              Archives Native American art                  2,279                 statistical          110           110         0

                                                              Physical Anthropology -                       1,257                 judgment             90             90         0
                                                                Selected skulls

    Mineral Sciences               340,000                    Gems   _-':J 3229 i~ms)                       7,874                 statistical          192           177         2
                                                                                                                                  judgment             262           176         1
                                                                                                            8,136                 statistical          215           177         0

                                                              Mineral purchases    ~   $1 OK-                253                  100 percent          253           129         2
                                                                    FY 2003/04

                                                              Martian Meteorites                             112                  100 percent          112           112         3

    Vertebrates                   9,560,000                   Hawaiian Honey Creepers- (Birds)               782                  judgment             32             31         0

    Invertebrate Zoology          34,320,000                  SeaShells -Bledsoe Collection at NHB          2,289                 judgment             45             30         0
                                                                           -Bledsoe shells at MSC                                 judgment             78             30         0

    Entomology                    32,520,000                  Butterflies                                    600                  nla                                  0        nla

    Botany                        4,790,000                   Herbarium Solanaceae                           608                  judgment             99             99         5


             Totals              126,450,000 	                                                              32,918                                    2,320          1,607      13

    (a) The statistical samples were based on random sampling criteria that had a 95 percent confidence level, 1.99 percent error rate, +1- 1.90 percent variance.
    (b) All samples were selected from inventory or catalog record numbers. However, some records had more than one object.




                                                                                                19 

                    ADMINISTRATIVELY CONFIDENTIAL

Appendix C. Collections Area Showing Security Device Problems
                                                                  ADMINISTRATIVELY CONFIDENTIAL

Appendix D. Management Comments, Office of Protection Services


    o	       Smithsonian Institution
             O~ o£ Pr<>t«Ii.(ln S/!!'1'iM
                                                                                                       Memo


      !)ate September 18, 2006

        To   A, Sprightly Ryan. Acting Inspector General
        "" 	 WiIlW'n W. llrubaltt!. Dir«:tor, OffiGfl of ra¢ilities Engineering iUld Operations

             William Tompkim, National Colle<:tioos Coordinator               .

             Cristian Samper K, Director, National MU5eumofNlltural H i$tQt 



     $ub~ 	 Response toInspectorGenc.m Draft Audit Report on Physical Security all.d Inventory 

             ContrQ1Mel1surtll to Safcgumi the National CoUed:ions 


             This respOllse is submitted on behalf of the Office ofProtection Servke.s (OPS). DPS bat
             agreed with National Museum of Natural History (NMNH) to provide a separate
             respanJe.
             In general, we aIXcpt the findin8$ afld feflommt'ndatlons of the: entire audit. We have
             some clarifications ofsome pomts that will be detailed in our responses to
             rerommendlltions I - 3. Per our agreement, NMNH will respond to the rema.inins
             ~ommendatjQns.




             1. 	     Prio~ the .repair. replacement,!)t upgtading of SefiUr!ty devices identified in
                      the 2005 ~nt 1U:port that·are related to direct or indJrea access to the
                      coDettiolls $t()~ areas, and prepare a comprehensive budget and elltablisb an
                      appropriate tbneframe tor oorrecting the cited wea'kntllJeS.




             SIPSSwas the main bead;.end monitoring IleCUrity syiStem ill each major 81 facility and
                          •             The first phft~ ofOPS' Security Sys_ Modernization
                                 the repl~t of SJPPS. The second phase was to bring all 81
                           with the newly developed Teelmical Security Stanl1ard$.
             ItUlOk approKintatety 4.5 yeal'$ to accotn Ush Phasc:l ofthe SSMI'. Since then OPS bas
             been atwmpting. as re~ permiUed              •mllriIy rlu1:l'ugh the Sf Facilities Capi1al
             Progmm)~ to eomplete Phase 11 throtlf!b     the entire $I. In implementmg Phase II,OPS




                                                           21 

                                                             ADMINISTRATIVELY CONFIDENTIAL

AppendixD. Management Comments, Office of Protection Services (continued)




                 Tl:11'get Date: 1 J~ 2{)07




                                                 l"hew if funding requested in the FY09 Capital
                                                       bring all eoU~Qns storage. IIatef1S (.d some
                                                                   .eet ba$ been def~
                                                                         'tblIi project as a
                                                                  Y09. The prQJeetis
          emTefltly in design·and iIhoUId be coinpletedby S~ 2001. The earlieSt date that a
          C011SU'U<ItiOfi ~ <iO).iId be lI~ would be Oetober 2008. The CQtlW:uotion is
          lIIltil::ipaWd.1o last approximately 1 - !.S years.
                 Target Date: JtlJl7I(1ry 20f0
          2. 	   Conduct .. seeurfty ~_ at MSC limillil'~ tile (IRe doltt in :!OOS at the
                 NMNB MaO buiding ami develop. pia to comet llipifiea"t detideD"
          Agn;e 'Wkh¢furi;ru:atkm: The ~ ~ at NMNH was done in unticlpatiO.·n
          oithe design ~ for                               .     eel. In the caseQfMS(;.a
                                    .      Ushed m                       fun design for the
                                      ItS part oftbo Phase   ....              It inbi:lpes of
          a~acomp~ upgrade at this much smaller facllity However, that was not




                                                      22 

                                                                      ADMINISTRATIVELY CONFIDENTIAL

AppendixD. Management Comments, Office of Protection Services (continued)



          possible and th~       (I   ~ bill been deftmed Inlulllly by OPS (until stPl"S was repJa<:OO)
          and.                        81 budget development p~ Cutmltly. complete Phase 1I
          upgrades an:                 for the roo Capital Proawn.
                    Target Dole:      J(11IlKR')' 2011.

          The 	                                     t MSC have ~.redand an: seoored adequately..
          3. 	      Re-empihllD OPS requiNmentll for SKtIrity of6eer ftlSpoues t. 311U"D1$ liDd
                    .:mWder _anding the 50pt!M'Urory'Fol ofseeurity oftieen thatwQQld be
                    IIftowed to enter the NMNH eo1lediOll5 Meal to provide needed coverage.

                         clarifica,rio.n: way ofcIadiioodon. an OPS
                                            By. .




                                      collection storage at J'I.'MNH 

                                    other collecti.()u storage can by 

                 not '1Q(P4me.wed any issues in alarmMpO!lSe fbi time two areas. 

          By l'hr. the ml\lmity of the warms that WI!I'e identified by the 10 'staffare considered
          ''nui!llltJ<le fIIarms" within the llCCUtity induslty. These ate vulld lilarmIl (not false); but are
          CllIUSed by situations that are not, pnerall:y, breaches ofsecurity. In this case, the locations
          identiW by the 10·staffhave many ''nUlsance alarms" that are ¢\lUlled by issues s\leh lIS
          ~notpresentinathelr~s                                                                               r
          similat Occurrences. The plem
          complaeency in a IlCCUtity f'on;e that has responded. 10 the same aIaml over and over and
          fuund no real1mlach in security. If II security force is understaffed, III idenlified by the JO
          staff, this problem can ellUSO these 00.", ~ alanns tohave a lower priorily'in the .
          l'IliSJlOtISt'bilities ofsecurity staff. This is what ocourted atNMNH. An ~
          seoority fOl'Ce must ~ their duties and~&e to wbaI is "Ukely'" a real security
          ill<lident. Altboogb.~ QIl OPS investiptjons aU alartll!>l.recclved II, NSponse. It has
          taken It coosidemble amount oftime to respond 10 ctll1ain alarms in NMNH.
          Thill is otl'ered as an expJtI:IlIHion   oot !In excuse. It is OPS policy to
          respond to every alarm in a time        is our intent moo $0 at every Sl facility.
          Tl:Iefollowing actions will be. ~ by OPS. at all facilities, to CIlSun:odeqlJiW
          ~ and to mlni~~aIiIrmll:

          It 	   E3ch week the Controllomn Opetatiot\$ Security Manager will run and review
                 Alarm Arovity,            port wl.U klentHy l'e5poPse times. nulsan~ alarm!!' and
                 alatm tec;hnkid
          It 	   The PKility Se<:!l1rigt Manager will disCU8!l ftn«ings of the wecldy.181m activity report
                 with 1M CwtrolRoom Ope:ration$ SecurityManager and will then discuS$ the results
                 with Unit ~tySupervmm.                                                                     .
          .. RqJeated activations disoovered to be the resfllt ofsbdf
             procedUfe& will be identitled aDd !;omnmnl«ted to the




                                                               23 

                                                            ADMINISTRATIVELY CONFIDENTIAL

Appendix D. Management Comments, Office of Protection Services (continued)




          • 	 TheNMNH Security Unit win establish 1.1 new dedicatlld post named Collateral
              Duty/Alw:n Respo1li(lOfficctL New Post Orduswill be written to retkct: the
              assignment. Although the postureinlt!flded to have other dutie$ 8u<:h U It gallery
              post, tbe posts' tim pr'                response. Based on the number ofalarms
              cutrently received dally                           post will have to be dedicated to
             alarm response until flU
          • 	 The Collateral/Alum R.espOQlle Offi~$) will document each alarm respi)1llJe daily.
              the mulb. time itlfwmed ofthe a~. and time the Control Room WG6 rontatted to
              reset the alarm. 	                                                                 .
          • 	 A blotter entrywiD be entered fOf each a1w:n from the fOrm the ofiker uses to noord
             the alarm adivation.
          • 	 SeQlrity MiIlIlI8I!meJ1t will wnduct periodic in&pection~of Conlfction Areas rewrding
              the result1n the blotter.
                 Targtt1 Dat(!: 1 October t006




                                                     24 

                                                                    ADMINISTRATIVELY CONFIDENTIAL

Appendix E. Management Comments, Director, National Museum ofNatural
History



            Smithsonian
            National MUSeU"1 ofNatural History




            Date:                 September 27. 2006

            To:                   A. Sprightly.Ryan, Acting lruIpootor General

            Cc:                   William Brubaker, Director, Office ofFllcilities Bnsineering &. 0perati0ll1O
                                  William Tompkins, National Collections Coordinator
                                  lat1'1(1S J. McIauglllro. Director, Oftke ofPtotectiOllServl.ces

                                  CristWl Sampcr K., Piroctor, Natiooai Musoum ofNatural History       ~
            SubJoot:              Respoose. to AugU$t 23, 2006 DrlItl: AudltR~ 011 Physical Security and
                                  Inventory Control M~ures to Safegllllrdlhe National o,lloetions


                      NMNH II~ the opportnnityto respond to the Audit Report on Physical
            Security11M JnventoryControl ~ to ~d the National Collections. 1n
            ~ we II8f0I> with the overaU fmdlnS$. It had been some mosinee the last
            collections·relatedaudit, and it can be helpthl to have extemnl pmipective on policies
            and practices. l'be report's recognition of the effects of resourre constraints is very
            important, 11$ is theintetplay b«weet! security .findings, under tbejurlsdiction of t1w
            Oltke. ofProtecmon Service!!, and physical oonll'Ol and Inventory, under NMNH's
            ¢()!ltrol. Weare hoptltid that t1w reoommendmioll$ will support our requests fur
            :iddltiQlllll reJ!O'U1'CeS. lIS we fOimS thole limited ~ we ® have on makillg
            necessary changei and developing plans fur resources as they arefbrthooming..


            RespI}Me W itooomUleJldationli.

            N(lte:RecomlUl.!lldaUom 14 are ~ OR physicalwntrols under the oversight of
            OPS. NMNH regards thcsu recommllIldatiooi as IlpptO'priate.lU'Jd anticipates tbat
            resulting actiws will yield WduabJe improvements to co1lectioos $CCllrity, NMNH will
            rely on thePi'rector, 0}>8, to act 1.IpoIl the&} recommendmioDS.




            $MmI$Q!It~NIN~
            N\iIImdHOiImY lI<Iwn 01 Ml\C ~
            P.Q.llod70!1
            ~.
            _m_~           oo:!OOu.•lIni
            ;lI)'US7Al'1sul'ol<




                                                            25 

                                                          ADMINISTRATIVELY CONFIDENTIAL

Appendix E. Management Comments, Director, National Museum ofNatural
History (continued)




              4. 	 Require 118.department coDeeaeu!I mal. •'" to implement striet controls
                   over diemveatory and me of keys to eoUection storlileatblBets. and develOp
                   a detded budget and plan fIn"·repJaetng olclcabillets witho..tloddng
                   medianfsms with storage cablBets havillg ~ for all Clllleetlolls wld1any
                  sfgDUI~t tooimer.-., MeIltifiC oTJrlstoriw value.

                  4-A. Cmltnl over inventory and aH of keys to CJ:!llecttoas storage cablnets

                  NMNH agrees that these OOII1roIlJ need Improvement mdc<msistency across the
                  museum. The museum wiD review its ttUUlllpment ofcollecfions ~ ooit
                  keys and will devel()p an NMNH-wide policy which will be IlIwed June, 2007.
                  Implementation ofthis poncy will be included in appropriate performanoe plms
                  of coDeruons managers and Dtpllrtment Chairs•

                  ....». ~p a deWled budget lIud plan fin" replacing old eabJnets WIiIlout
                  ioekillgttllllC!haD.!sms Mth storage cabJnets havlng lotkl for all ~oWl
                  witll any slpHlellllt eommerdat,.Jdentiflc or bistorklll vahle.

                  NMNH a~ that oollelltions with slgnifi~t value should be in locked
                  cabinetry. In 200tS NMNH developed a museum-wide casereplaoemem plan.
                  NMNH win aH this data to develop a priorityliiting and associated detailed
                  budget by Janllllty 1,2001. This phm lind the detailed budget will be used a~ the
                  bam fur propo!lllls to the SmithOOliian Cate and Premvatioo.Fond and future
                  fedenII budget requtl$tti.


               5. 	 EatabHsb reqtl1rementi for cl<IHr supervision of noa-eolbledon stall', vilIltOrt,
                    g~rotblll' indlvfdualullowed aeet1ll$to the coUediuaL CoumJer saeeniBg
                    Iess..klIo'l'm or Dew vJsitort as thgy leave highe....value eoUeetIoo$ areas.

                  NMNH .agrees. with the spirit ofthisreOOmmendatton, however. the staffneeded
                  to iblfiU getlemiized closer supervision CaMQt be accompllll~ with exJ.!itins
                  ~ while still fulfilling ~lIibmty expectations. Non-staffcollections
                  WIitoI's ate3lreud,y ~ and in. somounits tOOte vmtorll m.~ wbm
                  winS !he oolleetions. We feel the museum's general approach to visitor
                  monitot;ing is ~ with other ~Qns that: bold scientific colleruoos,
                  and is ~ for the majority of the oo11ectioll$•. To ensure that IIpproprlate
                  practices ~ beingfollowed pel the nature ofthe specific groups ofthe
                  eo~NMN.H will review its visitor andlXlUe\:tiOmi procedures, examine
                  those in p1aoe atwmpatable museums. and will ~ updatedpoUoy guid~ by
                  M_2007.                       '




                                                   26
                                                          ADMINISTRATIVELY CONFIDENTIAL

Appendix E. Management Comments, Director, National Museum ofNatural
History (continued)



              6. 	 Pro'ride a UM of speeuk ldg&-vaJue coHeetiou storage areaS to OFEO tn be
                   used by ono to ootify NMNH collections offielals wilen outside cwtraetor
                   pel'SllDDel will be working mthes& Ife&S.

                 NMNHdisagrees with this rerommeildation because it oollldi.dendfy specific
                 high value areas nf the collectiOllll to llon.staff. Instead, we suggest that a list of
                 the Departmelrt Clmh:s and COUecliOllll MlUlllgers and their o£lice phone n1lll'lbm
                 mapped to the arw ofthebuikting be provided to OPEO IiO that they will be
                 c~ wbcn any outside contraoror peI'1lQIDlel need to wOlt in tM.~ areat, This
                 list aM asSOCli!!ted map will be provided in electronic form by October 31. 2006.


              7. 	 Work with the Natioulll COlleedollS Program Director to finsllzt Che
                   ~m'B CoJle!:tlons Management Polley aruJ Inventory Pl•• and the sn
                 600 Implemeaflltlon M.mual.

                 NMNH agrees with this m:onunendlltion. The dmk policy is with the National
                 CoUecuOllll Progmm and the Office of the ~1 COUlUIOI for final miew.
                 NMNH wi'll wOlt with these ofiicellto finalize the polieyby January 1.2007. In
                 addition, NMNH will SI/Pport the National CollectioWl Program who has the
                 m.ponsibllityto completethe SO 600 lmpl~ti"l1. manual
                 NMNH will furward a UlllIIeIIIlI·level Inventory Plen for tbe Nlition.a1Collectiom
                 Program ~lItor'a and Undet Secretary for Science's review by December
                 3i.2006.

              .. 	DirectfileDepartmmt of MJneraJ ~ to eondod: a eomplettt tnVClIroty
                  .md update the iIlventoryreeord. fur all valllabJer pms and mmBIIIs ami
                  dflvelup afullow-up plan te Wcate aU missing DbJects.

                 t.'MNH &gMl& with this r~on, a.nd empb~ that our lIbility to
                 intplement1:hln.w.ommoodioonis contingent \lp(In nlCeiviflg limding fur
                 lIdditional $tIIff. A oomplete inventory ofall the Department of Mineral Sdenees'
                 hol~ would       be It goal should the ideal resources be avllilable fortms
                 undetIiIkinl- Severalmo:re staffwouid be needed to ~ a complete
                 inventory withjn a reasonable time fuune. Ann int'Wlion ofnew at;df PlIlllike1y,
                 NMNH SII~<!$I$ that the ~llSt.lful in~es. for rlIk ~purpoW$,
                 am the following. to be completed ~ing to tbis schedule unless additfuntil
                 staff support beeomea available, WhIle volnnteers maybe helpful in .other arw
                 ofml.l$eWll WOJ:k, NMNH believes it is unwise to bave volnnteers _ist with
                 inv~ oilUgb value oollectiOlls.




                                                   27 

                                                         ADMINISTRATIVELY CONFIDENTIAL

Appendix E. Management Comments, Director, National Museum ofNatural
History (continued)




              • 	 Vault ~ wlll befl.nitllledby Deeember~10()6
              • 	 DeSautels Room Will be fmished by June:, 2007
              • 	 With l(hnidUiOll8l $taifworking fuU_1H10mplete invenlOQlofb Minerals
                  Reference.Collection will be finished by March, 2008; otherwise, this inventory
                  clllW'itbe ~pl~ in a reaeonableutJIe tl'anre.
              • 	 Wlfh lfueeadditional stafi' woildng< full time. a oomplem inventory oftile
                  Metoodtell Colle¢1i<ln will be finished by ~ber. 2007; otb.lltwise, this
                  inwntoryt1llllOOt be aooompIifihed in a ~ble time&ame.

                 After each ofthese inventories, areeonciliation plllll will be developed by the
                 Depm:tmenl and the llegistrar for the AssOOate Director fur Researdt and
                 Collllctions' wview. ~ will be updated within six month$ of the completion
                 of ~ inventoty.

                 "fil.is ~hedule depends   the receipt of llie IIddili0rutl slal'freoot!tC",ltS
                 outlined aL             the be~ (ifFY 2001. NMNH wiII be pursuing
                 additiormli\mding ~ities for these pa$itions aud1 as~r-endfundiag.


              9. 	 Require'that ~port\Irmllmie plant afDqartmlmt Cbail'$l[Ontain $Cplidlic
                   loventlllY goals, tacImImj dl.weJaping and ~dug eytUcaJ IlIVOtnry
                   ,~. ua meaSDte of lob ped'OrtlWlce fot apprmal purposes.

                 NMNH agrees with tbl3 recommendation, and will inclUde inventory goals in the
                 perfu~plans fur the evaluation c)fole ~ng inJanuary. 2007.



              If.	D irect the R~to work with deplll'tmeDt chairpersons to develop a
                  priority list otNMNH'. most 'YUluable o~ and typ••pecil1lell$ and, with
                  the assiJtaneeof the InIdtution'$statistieian. dewrmiae the!lptmlprlate
                  l*cental!\l~t "lIm_.r~ objeets to review for eaeb eydkal inventory.

                 ~ ag,~withthls ~Oll, ami wltl develOp _ priorlW listland
                 detlmn_~priaw.~ or counts for its eyelkat inventorles by-the 411>
                 quarterofPY 2007.


              1l.lnItructtheAssoeiateDirector (for Resem:h aDd COUooftODS ) and the
                  llegbtrar. and the AlSistallt Director fo, ~imt Tedlnll~, to dAwlllop
                  and impleIrIem ill 'lim~ tDitidftor all blglt-value ~ aDd types
                  spedmeuJ,te IIpdllte and ~,,~ all tleetfOnk &dpaper ~"thQy are
                  (Oumteat ill dollUUl.elltlllg the_WI for die t'Olleedouinventory.




                                                 28 

                                                         ADMINISTRATIVELY CONFIDENTIAL

Appendix E. Management Comments, Director, National Museum of Natural
History (continued)




                 NMNH a~ with thi$~n. .JmpkunentariM is highly dependent
                 upon $Wf~ and wiD reqW;re faet finding to ~the sme·ofVariOlIS
                 reoordt In each collections unit. Current estimatei! indicate that additional
                 .sev. Fl'Es win be  ~ to       e¢tnplete this,and
                 the implementation plan. l'be mutloom's collccuOll5 information
                                                                                  Ii1I
                                                                    tilatestilllllte will updated in
                                                                                         be
                                                                                             is
                                                                                         sy$wm   the
                 E1~ M"U$eUm (EMu), which will include a tl'lIIlSaction mmagelMl1t
                 t'uncliomtlfty that is CUl:tCiItlyunder developmllJJt. As el~ and paper records
                 are entenll.f intn EMu, the primary rerord for the item is established. As a flt'St
                 step to address thlll recommendation, NMNH win .review the records in EMu and
                 win identify the high-value items that are not yet recorded in EMu by June. 2007.
                 NMNR wiD then procccdwith an implementation plan that will :include tlqet
                                                                               m
                 dat:es·Wld an~ted completion date. At the ItIl!'tent lilW'J resoorces we
                 estItnatethis to be a muJtl·year effort.




                                                  29 

